Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE PAYMENTS FOR
   DIAGNOSTIC RADIOLOGY
   SERVICES IN EMERGENCY
       DEPARTMENTS




                    Daniel R. Levinson
                     Inspector General

                       April 2011
                     OEI-07-09-00450
E   X
       EE CX UE TC I U V T E I VS EU M S M U A MR MY A R Y


                      OBJECTIVES
                      To determine the extent to which, in 2008, Medicare allowed claims for
                      interpretation and reports of diagnostic radiology services—specifically
                      computed tomography (CT), magnetic resonance imaging (MRI), and
                      x-ray services—performed in hospital outpatient emergency
                      departments that:
                      1. met Medicare documentation requirements,
                      2. were performed before beneficiaries left the hospital outpatient
                         emergency departments, and
                      3. followed suggested documentation practice guidelines promoted by
                         the American College of Radiology.


                      BACKGROUND
                      The Social Security Act and Centers for Medicare & Medicaid Services
                      (CMS) regulations govern Medicare payments for all radiology services
                      and require that services be medically necessary, have documentation to
                      support the claims, and be ordered by physicians.
                      We used the 2008 National Claims History File to identify 9.6 million
                      Medicare claims ($215 million) for interpretation and reports of
                      diagnostic radiology services for beneficiaries in hospital outpatient
                      emergency departments. Our review consisted of two simple random
                      samples of claims: a sample of 220 CT and MRI claims and a sample of
                      220 x-ray claims. We used a document review instrument to review all
                      medical record documentation requested from facilities for each sampled
                      claim. We considered sampled claims erroneous if (1) documentation
                      did not support that services were performed or (2) physicians’ orders
                      were not present. We also reviewed all interpretation and reports to
                      determine whether they were performed during beneficiaries’ diagnoses
                      and treatments in hospital outpatient emergency departments. Finally,
                      we reviewed interpretation and reports for all sampled claims for
                      consistency with the American College of Radiology’s suggested
                      documentation practice guidelines.


                      FINDINGS
                      In 2008, Medicare claims for interpretation and reports of 19 percent
                      of CTs and MRIs and 14 percent of x-rays in hospital outpatient
                      emergency departments were erroneous because of insufficient

    OEI-07-09-00450   M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S   i
E   X   E C     U T   I     V      E           S      U M           M    A   R Y


                          documentation. Of the nearly 3 million claims allowed for
                          interpretation and reports of CT and MRI services in hospital
                          outpatient emergency departments in 2008, Medicare erroneously
                          allowed 19 percent, amounting to nearly $29 million. Of the nearly
                          6.6 million claims allowed for interpretation and reports of x-ray
                          services in hospital outpatient emergency departments in 2008,
                          Medicare erroneously allowed 14 percent, amounting to nearly
                          $9 million. Physicians’ orders were not present in medical record
                          documentation for 12 percent of CT and MRI interpretation and report
                          claims, amounting to nearly $18 million. Physicians’ orders were not
                          present in medical record documentation for 9 percent of x-ray
                          interpretation and report claims, amounting to $5 million.
                          Documentation was not provided to support that interpretation and
                          reports had been performed for 12 percent of CT and MRI claims,
                          amounting to nearly $19 million, and 8 percent of x-ray claims,
                          amounting to $5 million.
                          In 2008, Medicare paid for interpretation and reports performed for
                          16 percent of x-rays and 12 percent of CTs and MRIs after
                          beneficiaries left hospital outpatient emergency departments; CMS
                          offers inconsistent payment guidance on the timing for
                          interpretation. CMS’s guidance to contractors states that contractors
                          are to pay only for the interpretation performed “at the same time” as
                          the diagnosis and treatment of the beneficiary in the emergency room if
                          contractors receive multiple claims from, for example, the emergency
                          room physician and the radiologist. However, contractors are not
                          required to confirm that the interpretation was performed while the
                          beneficiary was in the emergency department if only one claim is
                          received. Medicare allowed more than $10 million (16 percent of claims)
                          for interpretation and reports of x-rays that were performed after
                          beneficiaries left hospital outpatient emergency departments and, based
                          on OIG’s prior work in this area, may not have contributed to
                          beneficiaries’ diagnoses and treatments. Of the $10 million, $7.5 million
                          was for claims that had physicians’ orders and documentation to show
                          that interpretation and reports had been performed. In addition,
                          Medicare allowed $19 million for interpretation and reports of CTs and
                          MRIs that were performed after beneficiaries left hospital outpatient
                          emergency departments. Of the $19 million, $5.4 million was for claims
                          that had physicians’ orders and documentation to show that
                          interpretation and reports were performed.



    OEI-07-09-00450       M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                  ii
E   X   E C     U T   I     V      E           S      U M           M    A   R Y


                          Interpretation and reports for 71 percent of x-rays and 69 percent of
                          CTs and MRIs in hospital outpatient emergency departments did not
                          follow one or more suggested documentation practice guidelines
                          promoted by the American College of Radiology. Seventy-one
                          percent of interpretation and reports for x-rays did not follow one or
                          more suggested practice guidelines. Sixty-nine percent of interpretation
                          and reports for CTs and MRIs did not follow one or more suggested
                          practice guidelines. Documentation standards for interpretation and
                          reports are essential for determining whether diagnostic radiology
                          services contribute to beneficiaries’ diagnoses and treatments.


                          RECOMMENDATIONS
                          We recommend that CMS:
                          Educate providers on the requirement to maintain documentation on
                          submitted claims.
                          Adopt a uniform policy for single and multiple claims for
                          interpretation and reports of diagnostic radiology services to require
                          that claimed services be contemporaneous or identify
                          circumstances in which noncontemporaneous interpretations may
                          contribute to the diagnosis and treatment of beneficiaries in hospital
                          outpatient emergency departments.
                          Take appropriate action on the erroneously allowed claims identified
                          in our sample.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          In its written comments on the report, CMS concurred with the first and
                          third recommendations. CMS did not concur with the second
                          recommendation.
                          In response to the first recommendation, CMS indicated that it will
                          issue an educational article to the provider community to emphasize
                          that documentation requirements will be enforced. In response to the
                          third recommendation, CMS indicated that upon receipt of the files from
                          the Office of Inspector General, it will take appropriate action. CMS
                          will instruct the Medicare Administrative Contractors to consider this
                          issue when prioritizing their medical review strategies or other
                          interventions.


    OEI-07-09-00450       M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                  iii
E   X   E C     U T   I     V      E           S      U M           M    A   R Y


                          In response to the second recommendation, CMS indicated that it does
                          not believe that a single billed interpretation must, in all cases, be
                          contemporaneous with the beneficiary’s diagnosis and treatment to
                          contribute to that diagnosis and treatment. A uniform policy requiring
                          that interpretation and reports be contemporaneous with, or, if not
                          contemporaneous, demonstrably contribute to the beneficiary’s
                          diagnosis and treatment could reduce unexplained complexity in what is
                          already a complicated billing system for medical diagnostics. We have
                          revised the language of the second recommendation to clarify what we
                          are recommending.




    OEI-07-09-00450       M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                  iv
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         FINDINGS .................................................. 9
                   In 2008, Medicare claims for interpretation and reports of
                   19 percent of CTs and MRIs and 14 percent of x-rays in hospital
                   outpatient emergency departments were erroneous because of
                   insufficient documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   In 2008, Medicare paid for interpretation and reports performed
                   for 16 percent of x-rays and 12 percent of CTs and MRIs after
                   beneficiaries left hospital outpatient emergency departments . . . 11

                   Interpretation and reports for 71 percent of x-rays and 69 percent
                   of CTs and MRIs in hospital outpatient emergency departments
                   did not follow one or more suggested documentation practice
                   guidelines promoted by the American College of Radiology . . . . . 12



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   Agency Comments and Office of Inspector General Response. . . . 16



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                   A: Document Review Instrument . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                   B: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 19

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
   I N T R O D U C T I O N


                  OBJECTIVES
                  To determine the extent to which, in 2008, Medicare allowed claims for
                  interpretation and reports of diagnostic radiology services—specifically
                  computed tomography (CT), magnetic resonance imaging (MRI), and
                  x-ray services—performed in hospital outpatient emergency
                  departments that:
                  1. met Medicare documentation requirements,
                  2. were performed before beneficiaries left the hospital outpatient
                     emergency departments, and
                  3. followed suggested documentation practice guidelines promoted by
                     the American College of Radiology.


                  BACKGROUND
                  In 2005, the Medicare Payment Advisory Commission testified before
                  Congress about the increasing cost of diagnostic radiology services and
                  the potential overuse of these services. In 2009, the Senate Finance
                  Committee released Transforming the Health Care Delivery
                  System: Proposals to Improve Patient Care and Reduce Health Care
                  Costs, which indicated that the number of imaging services increased
                  more than other Medicare physician services for the period under
                  review.
                  The Social Security Act (the Act) and Centers for Medicare & Medicaid
                  Services (CMS) regulations govern Medicare payments for all services,
                  including diagnostic radiology services, 1 and require that these services
                  be ordered by physicians, have documentation to support the claims,
                  and be medically necessary. The Act states that Medicare payments
                  can be made when providers furnish appropriate information about the
                  service (i.e., services are ordered by practitioners with clinical privileges
                  or, consistent with State law, by other practitioners authorized by the
                  medical staff and the governing body to order the services. We refer to
                  these practitioners as physicians in this report). 2 Further, Medicare
                  pays only for services considered to be reasonable and necessary. 3


                      1 For the purposes of this report, diagnostic radiology services include x-rays, CTs, and
                  MRIs.
                      2 Section 1833(e) of the Act; 42 CFR § 482.26(b)(4).
                      3 Section 1862(a)(1)(A) of the Act; 42 U.S.C. § 1395y(a)(1).




OEI-07-09-00450   M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                          1
I   N T    R O        D   U      C T           I    O          N


                              Generally, reasonable and necessary services are those used to diagnose
                              or treat illness or injury or to improve the functioning of a malformed
                              body part.4
                              Payment for Interpretation of Diagnostic Tests Furnished to Emergency
                              Room Patients
                              As a condition of fee schedule payment, services are required to
                              contribute directly to the diagnosis or treatment of an individual
                              beneficiary. 5 When Medicare Administrative Contractors (MAC) receive
                              a single claim for interpretation and report, “they must presume that
                              the one service billed was a service to the individual beneficiary rather
                              than a quality control measure …” 6 The Medicare Claims Processing
                              Manual does not require contractors to confirm that interpretations
                              were performed at the same time that the patient was in the emergency
                              department or that the interpretation contributed to the diagnosis and
                              treatment of the individual beneficiary when a single claim is
                              submitted.
                              However, when a MAC receive[s] multiple claims for the same
                              interpretation “[MACs must] pay for the interpretation and report that
                              directly contributed to the diagnosis and treatment of the individual
                              patient.”7 The Medicare Claims Processing Manual goes on to state
                              that MACs must “pay for the interpretation billed by the . . . radiologist
                              if the interpretation of the procedure is performed at the same time as
                              the diagnosis and treatment of the beneficiary.” Any other
                              reinterpretation of the original interpretation (e.g., one that was
                              performed after the beneficiary has left the emergency department)
                              should be treated and reimbursed through the diagnosis-related group
                              as part of the hospital’s quality assurance program. 8




                                  4 Section 1862(a)(1)(A) of the Act; 42 U.S.C. § 1395y(a)(1).
                                  5 42 CFR § 415.102(a)(2).
                                  6 CMS,Medicare Claims Processing Manual (Internet-only manual), Pub. 100-04, ch. 13,
                              § 100.1. Accessed at http://www.cms.gov/Manuals/IOM/list.asp on October 1, 2010.
                                  7 Ibid.
                                  8 A diagnosis-related group is a system developed as part of the prospective payment

                              system to reimburse providers for treatment of similar diagnoses.



    OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                      2
I   N T    R O        D   U       C T          I    O          N


                              Medicare payments for diagnostic radiology services in hospital
                              outpatient emergency departments have two components: a technical
                              component, 9 paid by Part A; and a professional component, paid by
                              Part B. This report addresses only the professional component, which
                              includes payments for physicians’ interpretations of images and reports
                              on the clinical findings for inclusion in beneficiaries’
                              hospital-maintained medical records.10 Payments for the professional
                              component are sent to interpreting physicians (i.e., emergency room
                              physicians or radiologists). 11
                              After diagnostic radiology services are ordered by emergency
                              department physicians, they can:
                              •      review diagnostic radiology images as part of evaluation and
                                     management (E/M) services for beneficiaries,12
                              •      perform interpretation and reports of diagnostic radiology services,
                                     and/or
                              •      consult with radiologists for their interpretation and reports on the
                                     findings for diagnostic radiology services. 13
                              Claims submitted for interpretations without complete written reports
                              do not meet the conditions for payment.




                                  9 The technical component of diagnostic radiology services includes the administration
                              and supervision of diagnostic equipment, supplies, and use of facilities. CMS Medicare
                              Claims Processing Manual (Internet-only manual), Pub. 100-04, ch. 13, § 20. Accessed at
                              http://www.cms.gov/Manuals/IOM/list.asp on October 1, 2010.
                                  10 42 CFR § 415.120(a).
                                  11 The physician should use modifier 26 to bill the professional component. American
                              Medical Association, Current Procedural Terminology, 2008.
                                12 E/M services refer to visits and consultations furnished by physicians. CMS, Medicare
                              Claims Processing Manual (Internet-only manual), Pub. 100-04, ch. 13, § 100.1. Accessed at
                              http://www.cms.gov/Manuals/IOM/list.asp on August 29, 2010. Billing Medicare for a
                              patient visit requires the selection of a Current Procedural Terminology (CPT) code that
                              best represents the level of E/M service performed. For example, there are five CPT codes
                              (99281–99285) that may be selected to bill for office or other outpatient visits for a new
                              patient. American Medical Association, Current Procedural Terminology, 2008.
                                13 CMS, Medicare Claims Processing Manual (Internet-only manual), Pub. 100-04,

                              ch. 13, § 100.1. Accessed at http://www.cms.gov/Manuals/IOM/list.asp on October 1, 2010.



    OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                      3
I   N T    R O        D   U      C T           I    O          N


                              Both emergency department physicians and radiologists may be paid for
                              their interpretation and reports for CTs, MRIs, or x-rays. 14 Medicare
                              generally pays for only one interpretation and report for each diagnostic
                              radiology service furnished to an emergency department patient. 15
                              Comprehensive Error Rate Testing
                              CMS monitors the rates of inappropriate payments for Medicare
                              fee-for-service claims through the Comprehensive Error Rate Testing
                              (CERT) program. CMS established the CERT program to randomly
                              sample and review different types of service claims submitted to
                              Medicare. To calculate error rates, CERT staff randomly select claims
                              for services each month from each contractor that processes Medicare
                              claims. CERT staff then request the medical record associated with
                              each sampled claim from the provider that submitted the claim. For
                              2007, the CERT-listed paid claims error rates for diagnostic radiology
                              services ranged from 0 to 7 percent, and provider compliance error rates
                              ranged from 0 to 29 percent depending on the contractor. Error rates
                              for this report are based on a methodology different from the
                              methodology used by CERT.
                              Previous OIG Work
                              The Office of Inspector General (OIG) issued a report in July 1993
                              entitled Medicare’s Payment for Interpretations of Hospital Emergency
                              Room X-rays (OEI-02-89-01490). The report found that in 44 percent of
                              the cases, radiologists reinterpreted sampled x-rays at least 1 day after
                              the emergency departments discharged the patients. These
                              reinterpretations had no effect on the treatments provided to
                              beneficiaries, and OIG recommended that these be treated and
                              reimbursed as part of the hospitals’ quality assurance programs.


                              METHODOLOGY
                              Scope
                              We evaluated whether claims allowed in 2008 for interpretation and
                              reports of diagnostic radiology services performed in hospital outpatient


                                  14 The physician specialty (i.e., emergency department physician or radiologist) has no
                              bearing upon which claim is paid. CMS, Medicare Claims Processing Manual (Internet-only
                              manual), Pub. 100-04, ch. 13, § 100.1 Accessed at http://www.cms.gov/Manuals/IOM/list.asp
                              on August 29, 2010. Radiologists provided interpretation and reports for 97 percent of
                              x-rays and 99 percent of CTs and MRIs for beneficiaries in hospital outpatient emergency
                              departments.
                                  15 60 Fed. Reg. 63130–63133 (Dec. 8, 1995).




    OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                      4
I   N T    R O        D   U      C T           I    O          N


                              emergency departments met two Medicare payment
                              requirements—namely, that: (1) physicians’ orders for the services be
                              present and (2) interpretation and reports be documented in the medical
                              record. Although contemporaneity is not a requirement, we determined
                              the percentage of interpretations that were performed after
                              beneficiaries left the hospital outpatient emergency department. Based
                              on prior OIG work in this area, we determined that interpretations
                              performed after the patient was discharged from the emergency room
                              may not have contributed to beneficiaries’ diagnosis and treatment. We
                              did not evaluate the proper coding or medical appropriateness of
                              diagnostic radiology services associated with claimed interpretation and
                              reports. Finally, we determined whether the interpretation and reports
                              followed suggested documentation practice guidelines promoted by the
                              American College of Radiology, although we did not question the
                              appropriateness of claims for services that did not follow these practice
                              guidelines.
                              Data Sources
                              Medicare outpatient claims identification. We used the 2008 National
                              Claims History Standard Analytical File to identify 46 million Medicare
                              outpatient claims allowed from 10.8 million hospital emergency
                              department visits not resulting in inpatient stays.16, 17 From these
                              46 million claims, we identified claims that (1) were for diagnostic
                              radiology services; 18 (2) included modifier 26, indicating the professional
                              component; (3) included codes 22 or 23 for place of service, indicating
                              outpatient or emergency department settings; and (4) included
                              Healthcare Common Procedure Coding System (HCPCS) codes in the
                              range of 70010–76140, indicating interpretation and reports of CTs,
                              MRIs, and x-rays. 19 This yielded a total of 9.6 million Medicare-allowed
                              claims (for a total of $215 million) for interpretation and reports in
                              hospital outpatient emergency departments. Of these, Medicare
                              allowed 3 million claims (for a total of $151 million) for interpretation


                                  16 We included claims with the following Ambulatory Payment Classifications: 00609,
                              00613, 00614, 00615, or 00616.
                                  17 Allowed claims were for services performed up to 2 days after the beneficiary’s

                              discharge from the hospital outpatient emergency department because nearly all claims for
                              interpretation and reports were created within 2 days of discharge.
                                  18 We included claims with the following Revenue Centers: 320, 321, 322, 323, 324, 329,

                              350, 351, 359, 610, 611, 612, or 619.
                                  19 We consulted with a practicing board-certified radiologist to identify which HCPCS

                              codes to include.


    OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                      5
I   N T    R O        D   U      C T           I    O          N


                              and reports of CTs and MRIs and 6.6 million claims (for a total of
                              $64 million) for interpretation and reports for x-rays.
                              Sample selection. From the 9.6 million claims that we identified for
                              interpretation and reports, we selected two simple random samples of
                              claims for our review. The first sample included 220 CT and MRI
                              claims, and the second sample included 220 x-ray claims. See Table 1
                              for population and sample statistics.

                                 Table 1: Population and Sample Claims
                                    Stratum                                                 Claims in Population                             Sample Size

                                    CT and MRI claims                                                               2,979,761*                        220

                                    X-ray claims                                                                      6,618,103                       220

                                       Total                                                                          9,597,864                       440

                                    * Of the 2,979,761 claims, 2,906,441 were for CTs and 73,320 were for MRIs.
                                    Source: OIG analysis of claims data, 2010.


                              Documentation request. We requested medical record documentation
                              from facilities that provided care to Medicare beneficiaries on the
                              sampled dates of service. This request included all documentation
                              (including physicians’ orders) relevant to diagnostic radiology services,
                              and interpretation and reports for those services provided in hospital
                              outpatient emergency departments.
                              To request medical documentation necessary to conduct this study, we
                              contacted—up to three times, if needed—the facilities where claimed
                              services were provided. Although we established contact with all
                              facilities, we had five sampled claims for which none of the
                              corresponding five facilities provided the documentation we requested. 20
                              We will forward these claims to CMS for appropriate action. Because
                              we made contact with these five facilities, we determined the five claims
                              from these facilities to be undocumented for the purposes of our study.
                              Therefore, we consider our response rate to be 100 percent.
                              Analysis
                              We created a document review instrument (see Appendix A) to guide
                              our review of the medical records to ensure that all information was


                                20 The OEI Medical Review Policy, June 2006, recommends treating sampled claims as
                              undocumented/unsubstantiated services when contact was made with providers but OEI
                              never received the corresponding medical records.



    OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                       6
I   N T    R O        D   U      C T           I    O          N


                              captured and that all reviews were consistent. During development of
                              the document review instrument, we conducted structured interviews
                              with officials from the CMS central office and staff for all 10 MACs to
                              ensure that we included relevant questions. To pretest the document
                              review instrument, we conducted documentation reviews of 24 medical
                              records with staff from two hospitals, including radiologists, emergency
                              department physicians, and compliance officers. 21
                              We reviewed documentation from medical records for all sampled claims
                              to determine whether interpretation and reports (1) were ordered by
                              physicians, (2) were present in the medical record, (3) were performed
                              contemporaneously with (i.e., at the same time as) diagnoses and
                              treatments of beneficiaries in the hospital outpatient emergency
                              departments, and (4) followed suggested documentation practice
                              guidelines promoted by the American College of Radiology. To
                              determine whether interpretation and reports were performed
                              contemporaneously with beneficiaries’ diagnoses and treatments, we
                              used the dictated dates and times on the interpretation and reports and
                              evaluated physicians’ notes for clinical findings and/or consultations
                              with the radiologists.
                              We considered claims erroneous if (1) physicians’ orders were not part of
                              the medical record documentation or (2) documentation did not support
                              that interpretation and reports were performed. Although lack of
                              contemporaneity does not solely determine whether a claim is erroneous
                              in instances in which a single claim is submitted, we sought to
                              determine whether interpretation and reports were performed
                              contemporaneously with beneficiaries’ diagnoses and treatments in
                              hospital outpatient emergency departments. To establish
                              contemporaneity, we determined primarily whether interpretation and
                              reports were dictated after beneficiaries left hospital outpatient
                              emergency departments. In the absence of documented dictation times
                              on interpretation and reports, we looked for other documentation in the
                              medical records that clearly indicated that information from the
                              interpretation and reports was communicated after beneficiaries left
                              hospital outpatient emergency departments.
                              As an additional component of our medical record documentation
                              review, we determined the extent to which interpretation and reports
                              contained information consistent with suggested practice guidelines and

                                  21 These medical records were not included in our final sample.




    OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                      7
I   N T    R O        D   U      C T           I    O          N


                              technical standards for documentation for interpretation and reports
                              from the American College of Radiology. We used these suggested
                              practice guidelines because CMS has not established minimum
                              documentation standards for interpretation and reports. 22 We were
                              able to determine whether practice guidelines were followed for the
                              194 CT and MRI claims and for the 202 x-ray claims that included
                              documentation of the interpretation and reports.
                              We projected our findings to the population of Medicare claims listed in
                              Table 1. See Appendix B for point estimates and confidence intervals.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspections approved by the Council of the Inspectors General on
                              Integrity and Efficiency.




                                  22 The American College of Radiology Practice Guidelines and Technical Standards are
                              educational tools designed to provide consensus-based, scientifically valid, and medically
                              credible information to assist health care providers in delivering effective, efficient,
                              consistent, and safe medical care. Accessed at
                              http://www.acr.org/SecondaryMainMenuCategories/quality_safety/guidelines.aspx on
                              October 1, 2010. Although OIG used industry-suggested documentation practice guidelines
                              and technical standards in this study, it does not constitute endorsement or official Federal
                              guidance.



    OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                      8
     F I N D I N G S


In 2008, Medicare claims for interpretation and           Of the 3 million claims allowed for
                                                          interpretation and reports of CT
    reports of 19 percent of CTs and MRIs and
                                                          and MRI services in 2008,
     14 percent of x-rays in hospital outpatient
                                                          Medicare erroneously allowed
      emergency departments were erroneous                19 percent. Medicare allowed
        because of insufficient documentation             $29 million for interpretation and
                                                          reports that did not have
                    physicians’ orders as part of the medical record documentation and/or
                    did not have documentation to support that interpretation and reports
                    were performed (see Table 2).
                    Table 2: Erroneous Claims and Amounts for CT and MRI
                    Interpretation and Reports
                                                                                  Claims
                    Type of Error                                                                      Allowed Amount
                                                                            (percentage)

                    Did not have physicians’ orders as
                    part of the medical record                                           11.8                          $17,619,327
                    documentation


                    Did not have documentation to
                    support that interpretation and                                      11.8                          $18,591,135
                    reports were performed

                       Total errors (gross)                                              23.6                          $36,210,462

                    (Overlapping errors)                                                  4.5                          $7,257,343*
                       Total errors (net)                                                19.1                          $28,953,119
                    * Relative precision exceeds 50 percent; the 95-percent confidence interval for this estimate is
                    $2,602,939–$11,911,747.
                    Source: OIG medical review of 2008 claims.


                    Of the nearly 6.6 million claims allowed for interpretation and reports of
                    x-ray services in 2008, Medicare erroneously allowed 14 percent.
                    Medicare allowed almost $9 million for interpretation and reports that
                    did not have physicians’ orders as part of the medical record
                    documentation or did not have documentation to support that
                    interpretation and reports were performed (see Table 3).




  OEI-07-09-00450   M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                            9
F   I   N   D I       N G    S


                            Table 3: Erroneous Claims and Amounts for X-Ray
                            Interpretation and Reports
                                                                                            Claims
                               Type of Error                                                                      Allowed Amount
                                                                                      (percentage)

                               Did not have physicians’ orders as
                               part of the medical record                                              8.6                         $5,448,504
                               documentation

                               Did not have documentation to
                               support that interpretation and                                         8.2                         $5,418,121
                               reports were performed

                                  Total errors (gross)                                                16.8                       $10,866,624

                               (Overlapping errors)                                                    2.7                        $1,889,468*
                                  Total errors (net)                                                  14.1                         $8,977,156
                               *Relative precision exceeds 50 percent; the 95-percent confidence interval for this estimate is
                               $361,541–$3,417,396.
                               Source: OIG medical review of 2008 claims.



                            Physicians’ orders were not present in medical record documentation for
                            12 percent of CT and MRI claims and 9 percent of x-ray claims
                            Medicare allowed almost $18 million for interpretation and report
                            claims of CTs and MRIs not supported by documented physicians’
                            orders. Medicare allowed $5 million for interpretation and report
                            claims of x-rays that did not have documented physicians’ orders. As a
                            condition for Medicare payment for these services, medical records must
                            include documented physicians’ orders.
                            Documentation was not provided to support that interpretation and reports
                            were performed for 12 percent of CT and MRI claims and 8 percent of x-ray
                            claims
                            Medicare allowed almost $19 million for undocumented interpretation
                            and reports of CTs and MRIs. Medicare allowed $5 million for
                            undocumented interpretation and reports of x-rays. The Act states that
                            as a condition for Medicare payment, providers must furnish
                            appropriate information about the service (i.e., documentation to
                            support that the service was performed).




    OEI-07-09-00450         M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                    10
F   I   N   D I       N G    S


                 In 2008, Medicare paid for interpretation and               CMS’s guidance on
               reports performed for 16 percent of x-rays and                payment for
               12 percent of CTs and MRIs after beneficiaries                interpretation of
                                 left emergency departments                  diagnostic tests
                                                                             furnished to
                            emergency room patients offers inconsistent direction regarding
                            whether interpretations are payable only if they were performed while
                            patients were in the emergency room.
                            According to CMS guidance, if claims processing contractors receive
                            multiple billing claims from, for example, the emergency room physician
                            and the radiologist, contractors are to pay only for the interpretation
                            performed “at the same time” as the diagnosis and treatment of the
                            beneficiary in the emergency room. However, if only one claim is
                            received, contractors are not required to confirm that the interpretation
                            was performed while the beneficiary was in the emergency
                            department.23
                            Interpretation and reports for 16 percent of x-rays were performed after
                            beneficiaries left hospital outpatient emergency departments
                            Medicare allowed more than $10 million for interpretation and reports
                            of x-rays that were performed after beneficiaries left hospital outpatient
                            emergency departments. These interpretations may not have
                            contributed to the diagnosis and treatment of beneficiaries, given prior
                            OIG work questioning the value of interpretations performed after
                            patients were discharged from the emergency room. We identified more
                            than $7.5 million of these claims that did not overlap with the erroneous
                            payments previously described in Table 3. In one example, a
                            beneficiary was discharged with the emergency department physician
                            indicating a “possible fibular head fracture.” However, documentation
                            indicated that the radiologist’s interpretation and report was not
                            performed until the following day. In another example, the beneficiary
                            was discharged from the hospital at 9:53 p.m., but the x-ray was not
                            interpreted until 9:45 a.m. the following day.
                            For 25 percent of x-ray claims, contemporaneity was difficult to
                            establish because documentation in the medical record on dictation
                            times was incomplete. In one medical record, the emergency
                            department notes included an interpretation of a chest x-ray; however,


                              23 CMS, Medicare Claims Processing Manual (Internet-only manual), Pub. 100-04, ch.
                            13, § 100.1. Accessed at http://www.cms.gov/Manuals/IOM/list.asp on October 1, 2010.



    OEI-07-09-00450         M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                    11
 F   I   N   D I       N G    S


                             the record said: “[T]he radiologist will read this later. If there is any
                             significance to that, we will notify the patient.” This documentation
                             suggests that the treating physician was preparing to discharge the
                             beneficiary prior to receiving the report from radiology. Although the
                             final interpretation and report was included in the medical record and
                             was dictated on the same day as the beneficiary’s emergency room visit,
                             it was difficult to determine whether the radiologist verbally
                             communicated the interpretation and report to the treating physician
                             prior to discharge.
                             Interpretation and reports for 12 percent of CTs and MRIs were performed
                             after beneficiaries left hospital outpatient emergency departments
                             Medicare allowed more than $19 million for interpretation and reports
                             of CTs and MRIs that were performed after beneficiaries left hospital
                             outpatient emergency departments. Presumably, these interpretation
                             and reports did not contribute to beneficiaries’ diagnoses and
                             treatments. We identified $5.4 million of these claims that did not
                             overlap with the erroneous payments previously described in Table 2.
                             For 27 percent of CT and MRI claims, contemporaneity was difficult to
                             establish because documentation in the medical record on dictation
                             times was incomplete.



    Interpretation and reports for 71 percent of                       Of the 9.6 million x-ray, CT, and
      x-rays and 69 percent of CTs and MRIs in                         MRI claims allowed,
                                                                       interpretation and reports did not
hospital outpatient emergency departments did
                                                                       follow suggested documentation
              not follow one or more suggested
                                                                       practice guidelines for 71 percent
documentation practice guidelines promoted by                          of x-ray claims and 69 percent of
             the American College of Radiology                         CT and MRI claims. At the time
                                                                       of our review, CMS had not
                             established minimum documentation standards for interpretation and
                             reports of diagnostic radiology services. However, the American College
                             of Radiology provides suggested practice guidelines for documentation of
                             interpretation and reports as an educational tool to help practitioners
                             deliver effective, efficient, consistent, and safe medical care. While the
                             American College of Radiology indicates that these guidelines are not
                             inflexible rules or practice requirements and are not intended to
                             establish a legal standard of care, we used some of these practice
                             guidelines, specifically dictation date and time, when available, to
                             establish whether interpretation and reports contributed to diagnoses
                             and treatments through contemporaneity.
     OEI-07-09-00450         M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                     12
F   I   N   D I       N G     S


                             Seventy-one percent of interpretation and reports for x-rays did not follow
                             one or more suggested practice guidelines for documentation
                             Seventy-one percent of interpretation and reports for x-rays did not
                             follow one or more suggested practice guidelines (see Table 4). Although
                             following these practice guidelines is not required, the dictation date
                             and time are essential to establish contemporaneity and to establish
                             that these interpretation and reports were performed while
                             beneficiaries were in hospital outpatient emergency departments. The
                             time of dictation was missing from 25 percent of interpretation and
                             reports, and the date of dictation was missing from 18 percent of
                             interpretation and reports. In certain instances, we had to rely on other
                             documentation to establish contemporaneity. For example, notes in
                             medical records may have indicated that interpretation and reports
                             were communicated by the radiologists to the treating emergency
                             department physicians while beneficiaries were in hospital outpatient
                             emergency departments.
                             Table 4: American College of Radiology Practice Guidelines
                             for X-Rays
                                                                                             Percentage of Interpretation and
                                                                                              Reports for X-Rays That Did Not
                            Practice Guidelines
                                                                                        Follow Suggested Practice Guidelines
                                                                                                                      (n=202)
                            Time examination performed                                                                                               48.5
                            Time report dictated                                                                                                     24.8
                            Date report dictated                                                                                                     18.3
                            Referring physician                                                                                                      14.9
                            Date/time report transcribed                                                                                              9.9
                            Date examination performed                                                                                                1.0
                            Type of examination performed                                                                                             0.5
                            Name of interpreting physician                                                                                            0.5
                            Procedures and materials                                                                                                  0.5
                            Beneficiary identifier                                                                                                    0.0
                            Findings, limitations, and clinical issues                                                                                0.0
                            Diagnosis, if relevant                                                                                                    0.0
                            Missing at least one practice guideline                                                                                  71.3
                            Source: OIG analysis of claims data, 2010.




    OEI-07-09-00450          M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                        13
F   I   N   D I       N G     S


                             Sixty-nine percent of interpretation and reports for CTs and MRIs did not
                             follow one or more suggested practice guidelines for documentation
                             Sixty-nine percent of interpretation and reports for CTs and MRIs did
                             not follow one or more suggested practice guidelines (see Table 5).
                             Although following these practice guidelines is not required, dictation
                             date and time are critical to establishing that the results of the
                             interpretation and report are communicated in a timely manner to the
                             treating physician in the emergency department. The time of dictation
                             was missing from 27 percent of interpretation and reports, and the date
                             of dictation was missing from 18 percent of interpretation and reports.
                             However, as with interpretation and reports for x-rays, we relied on
                             other documentation to establish contemporaneity.
                             Table 5: American College of Radiology Practice Guidelines
                             for CTs and MRIs

                                                                                              Percentage of Interpretation and
                                                                                            Reports for CTs and MRIs That Did
                            Practice Guidelines
                                                                                               Not Follow Suggested Practice
                                                                                                           Guidelines (n=194)
                            Time examination performed                                                                                               45.4
                            Time report dictated                                                                                                     26.8
                            Date report dictated                                                                                                     18.0
                            Date/time report transcribed                                                                                             12.9
                            Referring physician                                                                                                       9.8
                            Beneficiary identifier                                                                                                    1.0
                            Date examination performed                                                                                                1.0
                            Name of interpreting physician                                                                                            1.0
                            Procedures and materials                                                                                                  1.0
                            Type of examination performed                                                                                             0.5
                            Findings, limitations, and clinical issues                                                                                0.5
                            Diagnosis, if relevant                                                                                                    0.5
                            Missing at least one practice guideline                                                                                  68.6
                            Source: OIG analysis of claims data, 2010.




    OEI-07-09-00450          M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                        14
   RR EE CC OO MM MM EE NN DD AA TT I I OO NN SS

                  In 2008, Medicare erroneously allowed 19 percent of claims for CT and
                  MRI interpretation and reports in hospital outpatient emergency
                  departments, amounting to nearly $29 million for interpretation and
                  reports that were not documented and/or not ordered by physicians.
                  Medicare erroneously allowed 14 percent of claims for x-ray
                  interpretation and reports in hospital outpatient emergency
                  departments, amounting to nearly $9 million. These claims were
                  erroneous because they were not documented and/or were not ordered
                  by physicians. CMS guidance is inconsistent regarding whether
                  diagnostic radiology interpretations are payable only if they were
                  performed while patients were in the emergency room. We found that
                  16 percent of interpretation and reports for x-rays and 12 percent of
                  interpretation and reports for CTs and MRIs were provided after
                  beneficiaries left hospital outpatient emergency departments. Prior
                  OIG work has questioned whether radiologists’ interpretations of x-rays
                  after patients are discharged from the emergency room contributed to
                  patient care.
                  Therefore, we recommend that CMS:
                  Educate providers on the requirement to maintain documentation on
                  submitted claims
                  CMS should remind providers of the requirement for documentation to
                  support claims for payment. This could include reminding providers
                  about the need for the medical record documentation to include
                  (1) physicians’ orders to support diagnostic radiology services performed
                  and (2) complete interpretation and reports.
                  Adopt a uniform policy for single and multiple claims for interpretation
                  and reports of diagnostic radiology services to require that claimed
                  services be contemporaneous or identify circumstances in which
                  noncontemporaneous interpretations may contribute to the diagnosis and
                  treatment of beneficiaries in hospital outpatient emergency departments

                  CMS should adopt a clear and uniform policy that requires paid claims
                  to be contemporaneous and to contribute to the diagnosis and treatment
                  of beneficiaries in hospital outpatient emergency departments
                  regardless of whether a single claim or multiple claims are submitted.
                  A uniform policy requiring that interpretation and reports be
                  contemporaneous with, or, if not contemporaneous, demonstrably
                  contribute to the beneficiary’s diagnosis and treatment could reduce
                  unexplained complexity in what is already a complicated billing system
                  for medical diagnostics.

OEI-07-09-00450   M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                          15
R   E C     O    M    M   E    N D            A T           I    O    N    S


                          We understand, however, that diagnosis and treatment may be
                          informed by interpretation of the radiology services after emergency
                          department encounters. As such, CMS should clearly define exceptions
                          for which noncontemporaneous interpretations may contribute to the
                          diagnosis and treatment of patients after they leave the emergency
                          department. As one possibility, CMS may wish to consider requiring
                          modifiers to track instances in which emergency department diagnostic
                          interpretations were performed after patients were discharged from
                          emergency department care.
                          Take appropriate action on the erroneously allowed claims identified in our
                          sample
                          We will forward information on the erroneously allowed claims
                          identified in our sample to CMS in a separate memorandum.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          In its written comments on the report, CMS concurred with the first and
                          third recommendations. CMS did not concur with the second
                          recommendation.
                          CMS stated that it would continue to monitor and refine its oversight of
                          diagnostic radiology services. In addition, CMS will request a meeting
                          with the American College of Radiology to review its suggested practice
                          guidelines for the documentation of interpretation and reports of CTs,
                          MRIs, and x-rays administered to patients in outpatient emergency
                          departments.
                          In response to the first recommendation, CMS indicated that it will
                          issue an educational article to the provider community to emphasize
                          that documentation requirements will be enforced.
                          In response to the third recommendation, CMS indicated that upon
                          receipt of the files from OIG, it will take appropriate action, including
                          forwarding the list of questionable claims to the Recovery Audit
                          Contractor and MACs. CMS will instruct the MACs to consider this
                          issue when prioritizing their medical review strategies or other
                          interventions.
                          In response to the second recommendation, CMS did not concur. CMS
                          indicated that it does not believe that a single billed interpretation
                          must, in all cases, be contemporaneous with the beneficiary’s diagnosis
                          and treatment to contribute to that diagnosis and treatment. CMS

    OEI-07-09-00450       M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                  16
R   E C     O    M    M   E    N D            A T           I    O    N    S


                          further indicated that continued diagnosis and treatment can extend
                          beyond the emergency encounter to other followup settings.
                          We agree that diagnosis and treatment may extend to other settings
                          subsequent to the emergency department encounter. We maintain,
                          however, that payment rules should uniformly require that an
                          interpretation and report on an emergency department x-ray be
                          contemporaneous with the beneficiary’s diagnosis and treatment. Or, if
                          interpretations are not contemporaneous, they should satisfy some
                          other criteria demonstrating the interpretations’ contribution to patient
                          care. CMS’s current payment policy applies requirements
                          inconsistently in different situations. When a MAC receives multiple
                          claims for the interpretation and report of an emergency department
                          x-ray, it pays only for the interpretation and report that was
                          contemporaneous with, and directly contributed to, the diagnosis and
                          treatment of the beneficiary. Any other interpretation and report is
                          treated as part of the hospital’s quality assurance program. In contrast,
                          when a MAC receives only a single interpretation and report claim in
                          connection with an emergency department x-ray, current policy drops
                          the requirement for contemporaneity and contribution altogether. The
                          MAC must presume that the one service billed was a medical service to
                          the individual and not quality assurance and pays the claim if it
                          otherwise meets any applicable reasonable and necessary test. This
                          inconsistency is not explained, nor do we believe the underlying
                          rationale is obvious. We have revised the language of the second
                          recommendation to clarify what we are recommending.
                          The full text of CMS’s comments can be found in Appendix C.




    OEI-07-09-00450       M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                  17
    A P P E N D I X                                ~         A



Document A: Document Review Instrument




 OEI-07-09-00450   M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                           18
                          A P P E N D I X                                      ~         B

             Table B: Point Estimates and Confidence Intervals

Description                                                                                              Sample                  Point                             95-Percent
                                                                                                         Size (n)             Estimate                     Confidence Interval

Percentage of allowed claims lacking documented physicians’ orders for interpretation
and reports of computed tomography (CT) and magnetic resonance imaging (MRI)                                   220                       11.8                                  7.5–16.1

Allowed amount of claims lacking documented physicians’ orders for interpretation and
reports of CTs and MRIs                                                                                        220            $17,619,327                 $10,954,812–$24,283,841

Percentage of allowed claims for interpretation and reports for CTs and MRIs that were
not documented                                                                                                 220                       11.8                                  7.5–16.1

Allowed amount of claims for interpretation and reports for CTs and MRIs that were
not documented                                                                                                 220            $18,591,135                 $11,620,055–$25,562,216

Percentage of allowed claims for CTs and MRIs that were not documented or lacked
physicians’ orders (gross)                                                                                     220                       23.6                                 16.7–30.6

Allowed amount of claims for CTs and MRIs that were not documented or lacked
physicians’ orders (gross)                                                                                     220            $36,210,462                 $24,959,322–$47,461,602

Percentage of allowed claims for CTs and MRIs that were not documented or lacked
physicians’ orders (overlapping)                                                                               220                         4.5                                  1.8–7.3

Allowed amount of claims for CTs and MRIs that were not documented or lacked
physicians’ orders (overlapping)                                                                               220             $7,257,343                   $2,602,939–$11,911,747

Percentage of allowed claims for CTs and MRIs that were not documented or lacked
physicians’ orders (net)                                                                                       220                       19.1                                 13.9–24.3

Allowed amount of claims for CTs and MRIs with no documented physicians’ orders or
having undocumented interpretation and reports (net)                                                           220            $28,953,119                 $20,756,618–$37,149,619

Percentage of allowed claims with no documented physicians’ orders for interpretation
and reports of x-rays                                                                                          220                         8.6                                 4.9–12.4

Allowed amount of claims with no documented physicians’ orders for interpretation and
reports of x-rays                                                                                              220             $5,448,504                     $3,054,537–$7,842,471

Percentage of allowed claims for interpretation and reports for x-rays that were not
documented                                                                                                     220                         8.2                                 4.5–11.8

Allowed amount of claims for interpretation and reports for x-rays that were
not documented                                                                                                 220             $5,418,121                     $2,952,704–$7,883,537

Percentage of allowed claims for interpretation and reports for x-rays that were not
documented or lacked physicians’ orders (gross)                                                                220                       16.8                                 10.9–22.7

Allowed amount of claims for interpretation and reports for x-rays that were not
documented or lacked physicians’ orders (gross)                                                                220            $10,866,624                   $6,922,264–$14,810,985

Percentage of allowed claims for interpretation and reports for x-rays that were not
documented or lacked physicians’ orders (overlapping)                                                          220                         2.7                                  0.6–4.9

Allowed amount of claims for interpretation and reports for x-rays that were not
documented or lacked physicians’ orders (overlapping)                                                          220             $1,889,468                        $361,541–$3,417,396

Percentage of allowed claims for interpretation and reports for x-rays that were not
documented or lacked physicians’ orders (net)                                                                  220                       14.1                                  9.5–18.7




                                                                                                                                                                   continued on next page




                      OEI-07-09-00450          M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                                              19
                  A    P P      E    N   D I       X           ~           B



Table B: Point Estimates and Confidence Intervals, Continued

Description                                                                                                Sample                  Point                             95-Percent
                                                                                                           Size (n)             Estimate                     Confidence Interval

Allowed amount of claims for interpretation and reports for x-rays that were not
documented or lacked physicians’ orders (net)                                                                    220             $8,977,156                    $5,972,273–$11,982,039

Percentage of allowed claims for interpretation and reports for x-rays that were not
contemporaneous with beneficiaries’ diagnoses and treatments in hospital outpatient                              220                       15.9                                    11.0–20.8
emergency departments

Allowed amount of claims for interpretation and reports for x-rays that were not
contemporaneous with beneficiaries’ diagnoses and treatments in hospital outpatient                              220           $10,170,821                     $6,977,447–$13,364,195
emergency departments

Allowed amount of claims for x-rays that were not contemporaneous and did not overlap
with those claims with no documented physicians’ orders or having undocumented                                   220             $7,575,923                    $4,754,169–$10,397,677
interpretation and reports

Percentage of allowed claims for interpretation and reports for CTs and MRIs that were
not contemporaneous with beneficiaries’ diagnoses and treatments in hospital                                     220                       11.8                                     7.5–16.1
outpatient emergency departments

Allowed amount of claims for interpretation and reports for CTs and MRIs that were not
contemporaneous with beneficiaries’ diagnoses and treatments in hospital outpatient                              220           $19,334,315                   $11,892,195–$26,776,434
emergency departments

Allowed amount of claims for CTs and MRIs that were not contemporaneous and did not
overlap with those claims with no documented physicians’ orders or having                                        220             $5,360,725                         $838,027–$9,883,424
undocumented interpretation and reports

Percentage of allowed claims for interpretation and reports for x-rays not following at
least one suggested practice guideline promoted by the American College of Radiology                             202                       71.3                                    65.0–77.6

X-ray interpretation and reports did not follow practice guideline for listing time
                                                                                                                 202                        48.5                                   41.6–55.5
examination was performed

X-ray interpretation and reports did not follow practice guideline for listing time
                                                                                                                 202                        24.8                                   18.8–30.8
report was dictated

X-ray interpretation and reports did not follow practice guideline for listing date
                                                                                                                 202                        18.3                                   12.9–23.7
report was dictated

X-ray interpretation and reports did not follow practice guideline for listing referring
                                                                                                                 202                       14.9                                     9.9–19.8
physician

X-ray interpretation and reports did not follow practice guideline for listing date/time
                                                                                                                 202                         9.9                                    5.7–14.1
report was transcribed

X-ray interpretation and reports did not follow practice guideline for listing date
                                                                                                                 202                         1.0                                     0.2–3.9*
examination was performed

X-ray interpretation and reports did not follow practice guideline for listing type of
                                                                                                                 202                         0.5                                    0.1–3.5**
examination performed

X-ray interpretation and reports did not follow practice guideline for listing name of
                                                                                                                 202                         0.5                                    0.1–3.5**
interpreting physician

X-ray interpretation and reports did not follow practice guideline for listing procedures
                                                                                                                 202                         0.5                                    0.1–3.5**
and materials

                                                                                                                                                                        continued on next page




                      OEI-07-09-00450           M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                                                  20
           A    P P       E    N     D I      X           ~           B




Table B: Point Estimates and Confidence Intervals, Continued

Description                                                                                                       Sample                  Point                             95-Percent
                                                                                                                  Size (n)             Estimate                     Confidence Interval

X-ray interpretation and reports did not follow practice guideline for listing beneficiary
                                                                                                                        202                         0.0                         0.0–1.8*
identifier

X-ray interpretation and reports did not follow practice guideline for listing findings,
                                                                                                                        202                         0.0                         0.0–1.8*
limitations, and clinical issues

X-ray interpretation and reports did not follow practice guideline for listing diagnosis, if
                                                                                                                        202                         0.0                         0.0–1.8*
relevant

Percentage of allowed claims for interpretation and reports for CTs and MRIs that did not
follow at least one suggested practice guideline promoted by the American College of                                    194                       68.6                         62.0–75.1
Radiology

CT and MRI interpretation and reports did not follow practice guideline for listing time
examination was performed                                                                                               194                        45.4                        38.3–52.4

CT and MRI interpretation and reports did not follow practice guideline for listing time
report was dictated                                                                                                     194                        26.8                        20.5–33.1

CT and MRI interpretation and reports did not follow practice guideline for listing date
report was dictated                                                                                                     194                        18.0                        12.6–23.5

CT and MRI interpretation and reports did not follow practice guideline for listing date/time
report was transcribed                                                                                                  194                       12.9                          8.1–17.6

CT and MRI interpretation and reports did not follow practice guideline for listing
referring physician                                                                                                     194                         9.8                         5.6–14.0

CT and MRI interpretation and reports did not follow practice guideline for listing
beneficiary identifier                                                                                                  194                         1.0                         0.3–4.1**

CT and MRI interpretation and reports did not follow practice guideline for listing date
examination was performed                                                                                               194                         1.0                         0.3–4.1**

CT and MRI interpretation and reports did not follow practice guideline for listing name
of interpreting physician                                                                                               194                         1.0                         0.3–4.1**

CT and MRI interpretation and reports did not follow practice guideline for listing
procedures and materials                                                                                                194                         1.0                         0.3–4.1**

CT and MRI interpretation and reports did not follow practice guideline for listing type of
examination performed                                                                                                   194                         0.5                         0.1–3.6**

CT and MRI interpretation and reports did not follow practice guideline for listing findings,
limitations, and clinical issues                                                                                        194                         0.5                         0.1–3.6**

CT and MRI interpretation and reports did not follow practice guideline for listing
diagnosis, if relevant                                                                                                  194                         0.5                         0.1–3.6**

*Confidence intervals were calculated with an exact method based on the binomial distribution because the standard method and logit transformation method cannot be
used when no sample units possess the characteristic measured.
**Confidence intervals were calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small number of
sample units possess the characteristic of interest.

Source: Office of Inspector General analysis of claims data, 2010.




                        OEI-07-09-00450                M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                                               21
      A P PEN D                      x               c
Agency Comments




                                                                                Centers for Medicare & Medicaid Services


                                                                                Administrator
                                            DEC 2 22010                         Washington, DC 20201




     TO: 	          Daniel R. Levinson
                    Inspector General
                                              /S/
     FROM: 	        Donald M. Berwick, M.D.
                    Administrator

     SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Medicare Payments for
                Diagnostic Radiology Services in Emergency Departments" (OEI-07-09-00450)


     Thank you for the opportunity to review and comment on the Office ofInspector General's
     (OIG) draft report, "Medicare Payments for Diagnostic Radiology Services in Emergency
     Departments." The Centers for Medicare & Medicaid Services (CMS) appreciates the time and
     resources OIGhas invested to determine the extent to which Medicare improperly paid claims
     for diagnostic radiology services.

     According to Medicare policy, emergency department physicians and radiologists may be paid
     for their interpretation and reports for computed tomography (CT), magnetic resonance imaging
     (MRI) and x-rays, Based on its review of two samples (220 claims each) of9.6 million 2008
     diagnostic radiology claims, OIG concluded that: 1) Medicare claims for interpretation and
     reports of an estimated 19 percent ofCTs and MRls and an estimated 14 percent of x-rays in
     hospital outpatient emergency departments were improperly paid due to insufficient
     documentation; 2) Medicare paid for interpretation and reports made on an estimated 16 percent
     of x-rays and an estimated 12 percent ofCTs and MRIs after beneficiaries left the hospital
     outpatient emergency departments; and 3) interpretations and reports for an estimated 71 percent
     of x-rays and an estimated 69 percent of CTs and MRIs in hospital outpatient emergency
     departments did not follow one or more suggested documentation practice guidelines promoted
     by the American College of Radiology.

     The CMS will continue to monitor and refine our oversight of diagnostic radiology services.
     OIG made the following recommendations.

     OIG Recommendation 1

     Educate providers on the requirement to maintain documentation on the submitted claims.

     CMS Response

     The CMS concurs. CMS will issue an educational article to the provider community to 

     emphasize that documentation requirements wilJ be enforced. 





  OEI·07·09·00450        MEDICARE PAYMENTS FOR DIAGNOSTIC RADIOLOGY SERVICES IN EMERGENCY DEPARTMENTS
                                                                                                                           22
A   P P     E   N     D I      X           ~           C




    OEI-07-09-00450         M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                                    23
   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Deborah Walden, Deputy Regional
                  Inspector General.
                  Brian T. Whitley served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Kansas
                  City regional office who contributed to the report include Dennis Tharp
                  and Amber Meurs; central office staff who contributed include Kevin
                  Manley, Kevin Farber, Julie Taitsman, and Jeff Weinstein.




OEI-07-09-00450   M E D I C A R E PA Y M E N T S   FOR   DIAGNOST IC RADIOLOGY SE RV ICES   IN   E M E R G E N C Y D E PA R T M E N T S
                                                                                                                                          24
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating practice guidelines:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
